                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: Al3020034                                                                    Page 1 of 1



                 Our office received an allegation of plagiarism in a funded NSF proposal. 1 Our review of
         the matter determined that most of the text in question belonged to foreign collaborators who
         were listed as co-mentors on projects of the funded proposal. The foreign collaborators' CVs
         and letters of support were included in the proposal. We found only one sole instance of minor
         plagiarism that did not rise to the level of research misconduct and therefore the allegation was
         not substantiated. Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
